No. 19-887
INTHE

~upreme Qtourt of tbe fflniteb ~tates
ARYEH SIMON and SASSYA SIMON,

Petitioners,
v.
MARRIOTT INTERNATIONAL, INC., et al.,

Respondents.

AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this
2Wd day of March, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF IN OPPOSITION by placing said copies in the U.S.
mail, first class postage prepaid, addressed as listed below.
Thomas David Warren
Pierce Bainbridge Beck
Price & Hecht LLP
355 South Grand Avenue
44th Floor
Los Angeles, CA 90071
(213) 262-9333
twarren@piercebainbridge.com

YMON
BYRO S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 34 7-8203

District of Columbia: SS
Subscribed and Sworn to before me this 2Wd day of March, 2020.

NO ARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2020.

